         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Evaluation Report




       EPA’s Gulf Coast Oil Spill
       Response Shows Need for
       Improved Documentation and
       Funding Practices
       Report No. 11-P-0527

       August 25, 2011
Report Contributors:                               Carolyn Copper
                                                   Chad Kincheloe
                                                   Angela Bennett
                                                   Anne Declerck




Abbreviations

ADA           Anti-Deficiency Act
BP            BP America Production Company
CBI           Confidential business information
CERCLA        Comprehensive Environmental Response, Compensation, and Liability Act
DWH           Deepwater Horizon
EPA           U.S. Environmental Protection Agency
EPM           Environmental Programs and Management
IAP           Incident action plan
IFMS          Integrated Financial Management System
MOU           Memorandum of understanding
NCP           National Contingency Plan
NPFC          National Pollution Fund Center
OCFO          Office of the Chief Financial Officer
OIG           Office of Inspector General
OPA           Oil Pollution Act
PRFA          Pollution Removal Funding Authorization
S&T           Science and Technology
SCORPIOS      Superfund Cost Recovery Package Imaging and On-Line System
SitRep        Situation report


Cover photo: Deepwater Horizon platform fire. (EPA photo)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       703-347-8330                                       Mailcode 8431P (Room N-4330)
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                                 11-P-0527
                                                                                                          August 25, 2011
                        Office of Inspector General


                        At a Glance
                                                                              Catalyst for Improving the Environment


Why We Did This Review             EPA’s Gulf Coast Oil Spill Response Shows Need for
                                   Improved Documentation and Funding Practices
We conducted this review to
determine whether the U.S.          What We Found
Environmental Protection
Agency (EPA) has controls in       EPA needs additional management controls to track and recover its Gulf Coast oil
place to recover its Gulf Coast    spill response costs. EPA needs controls to ensure documentation for its response
oil spill response costs as        activities is consistent and provides a clear audit trail that links response costs to
required and recommended by        authorized activities. While response costs were charged to a site code, we were
policy and guidance.               unable to determine the specific tasks associated with certain costs to ensure they
                                   were related to authorized activities. Further, EPA needs controls in its billing
Background                         review to ensure that cost documentation packages are clear and complete.
On April 22, 2010, the             EPA also needs to reach agreement with the Coast Guard regarding the sharing of
Deepwater Horizon mobile           contractor-designated confidential business information; this impasse has affected
offshore drilling unit sank,       reimbursement of EPA’s response costs. EPA contract costs represent over
causing the largest oil spill in   67 percent of its total response costs. Until this matter is resolved, reimbursement
U.S. history. The U.S. Coast       of EPA’s response costs may be further delayed or denied, and EPA may be at risk
Guard, as lead agency for the      of incurring additional Anti-Deficiency Act (ADA) violations, beyond the one it
response, authorized EPA to        incurred in November 2010, as well as Prompt Payment rule penalties.
monitor and respond to
potential public health and        EPA needs a new approach to enable it to fund emergency responses to oil spills.
environmental concerns. To         EPA had limited cash on hand to fund its response work. In an attempt to prevent
do so, EPA collected and           a cash shortfall and avoid an ADA violation, EPA received a cash advance of
managed environmental data,        $32 million from the Coast Guard in August 2010. Despite the advance, EPA
oversaw waste management           incurred an ADA violation in November 2010. EPA also temporarily charged non-
activities, and provided           oil-spill appropriations, such as Superfund, and reprogrammed funds to fund its
technical assistance. As of        response work. EPA’s temporary charging to Superfund resulted in a purpose
December 31, 2010, the             violation because Superfund cannot be used for oil spill response. While EPA’s
Coast Guard had authorized         actions ultimately provided it with access to funds, the ADA and purpose
EPA to spend approximately         violations, coupled with the extra work required by EPA to find sufficient funds
$61.9 million on response          during an oil spill disaster, indicate a need for a new funding approach.
work. EPA bills its costs and
receives reimbursement from         What We Recommend
the Coast Guard.
For further information,           We recommend that EPA implement controls to ensure that documentation
contact our Office of              supports authorized response activities and that response bills and supporting cost
Congressional, Public Affairs      documentation packages are clear and complete. We also recommend that EPA
and Management at                  reach an agreement with the Coast Guard on the confidential business information
(202) 566-2391.
                                   issue. EPA should also seek new or additional emergency response funding
The full report is at:             authority for oil spills. During the course of this review, EPA took action to seek
www.epa.gov/oig/reports/2011/      this authority. EPA disagreed with our first recommendation, but agreed with the
20110825-11-P-0527.pdf             three remaining recommendations.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                              THE INSPECTOR GENERAL




                                          August 25, 2011

MEMORANDUM

SUBJECT:	 EPA’s Gulf Coast Oil Spill Response Shows Need for
          Improved Documentation and Funding Practices
          Report No. 11-P-0527


FROM:	         Arthur A. Elkins, Jr.
               Inspector General

TO:            Bob Perciasepe
               Deputy Administrator

               Barbara Bennett 

               Chief Financial Officer



This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established resolution procedures.

The estimated direct labor and travel costs for this report are $305,261.

Action Required

Recommendation 4 is in a closed status for reporting purposes; therefore, you do not need to
respond further regarding this recommendation. The Agency disagreed with recommendation 1,
and this recommendation is unresolved with resolution efforts in progress. The Agency provided
an acceptable corrective action plan for recommendations 2 and 3, and these are still in an open
status. Therefore, in accordance with EPA Manual 2750 and ongoing resolution efforts, you are
required to provide a written response to recommendation 1, including a proposed corrective
action plan, within 90 calendar days of the report date. In addition, in your 90-day response you
may update the OIG on the implementation status of the agreed-to corrective actions for
recommendations 2 and 3.

The response will be posted on the OIG’s public website, along with our memorandum
commenting on the response. The response should be provided as an Adobe PDF file that
complies with the accessibility requirements of Section 508 of the Rehabilitation Act of 1973, as
amended. Please e-mail your response to Carolyn Copper at copper.carolyn@epa.gov. The final
response should not contain data that should not be released to the public; if the response
contains such data, the data for redaction or removal should be identified. We have no objections
to the further release of this report to the public. We will post this report to our website at
http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Wade Najjum at
(202) 566-0827 or najjum.wade@epa.gov, or Carolyn Copper at (202) 566-0829 or
copper.carolyn@epa.gov.
EPA’s Gulf Coast Oil Spill Response Shows Need for                                                                          11-P-0527
Improved Documentation and Funding Practices


                                  Table of Contents 


Chapters
   1	   Introduction ........................................................................................................      1


                Purpose .......................................................................................................    1     

                Background .................................................................................................       1     

                Noteworthy Achievements ...........................................................................                3     

                Scope and Methodology ..............................................................................               4     


   2    EPA Should Improve Controls to Document Response Activity...................                                               6


                EPA Response Activity Does Not Provide a Clear Audit Trail .....................                                   6

                Conclusion...................................................................................................      9     

                Recommendation ........................................................................................            9     

                Agency Response and OIG Evaluation .......................................................                         9


   3	   EPA Should Improve Controls to Address Deficiencies in 

        Cost Documentation ..........................................................................................             11 


                Improvements Needed in EPA’s Billing Review Process ............................                                  11 

                Conclusion...................................................................................................     13     

                Recommendation ........................................................................................           13     

                Agency Response and OIG Evaluation .......................................................                        13 


   4	   EPA at Risk Due to Impasse on Handling of 

        Confidential Business Information...................................................................                      14 


                Redacted CBI Needed for Reimbursement and Cost Recovery .................                                         14 

                Conclusion...................................................................................................     16     

                Recommendation ........................................................................................           16     

                Agency Response and OIG Evaluation .......................................................                        16 


   5    EPA Needs Additional Authority for Funding Future Responses .................                                             17


                EPA Faced Funding Challenges in Its Oil Spill Response ..........................                                 17 

                Conclusion...................................................................................................     20     

                Recommendation ........................................................................................           20     

                Agency Response and OIG Evaluation .......................................................                        20 


   Status of Recommendations and Potential Monetary Benefits..............................                                        21





                                                          -continued-
EPA’s Gulf Coast Oil Spill Response Shows Need for                                                                        11-P-0527
Improved Documentation and Funding Practices



Appendices
   A    Details on Scope and Methodology..................................................................                      22 


   B    Agency Response to Draft Report and OIG Comment ...................................                                     25 


   C    Distribution ........................................................................................................   35

                                               Chapter 1

                                                Introduction
Purpose
                   The purpose of our review was to evaluate U.S. Environmental Protection Agency
                   (EPA) management controls for ensuring EPA’s costs for responding to the Gulf
                   Coast oil spill are tracked and recovered. Our objective was to determine whether
                   EPA has controls in place to recover its Gulf Coast oil spill response costs as
                   required and recommended by policy and guidance.

Background
                   On April 22, 2010, the mobile offshore drilling unit Deepwater Horizon (DWH),
                   leased by BP America Production Company (BP), sank after an explosion.
                   Following the explosion, and until the well was sealed in September 2010, the
                   well released several thousand barrels of crude oil a day into the Gulf of Mexico.
                   This is the largest oil spill in U.S. history. The U.S. Department of Homeland
                   Security declared the spill a “Spill of National Significance.”1

                   National Contingency Plan and Federal Response

                   The National Contingency Plan (NCP) outlines the organizational structure and
                   procedures for preparing for and responding to discharges of oil and releases of
                   hazardous substances, pollutants, and contaminants, and the Oil Pollution Act
                   (OPA) authorizes funding for responses to oil releases under the Oil Spill
                   Liability Trust Fund. The federal government uses the trust fund for removal
                   costs, and monitoring, administrative, and operational and personnel costs for
                   implementation and enforcement of the OPA. The U.S. Coast Guard led the
                   federal response to the oil spill as the federal on scene coordinator.

                   The U.S. Coast Guard National Pollution Fund Center (NPFC) administers the
                   trust fund. NPFC designated two BP subsidiaries and five other companies as
                   responsible parties for DWH oil-spill-related claims. The federal on scene
                   coordinator has obligated $589 million of funding advanced by the Oil Spill
                   Liability Trust Fund, of which $554 million had been expended through
                   September 30, 2010. NPFC obligates funds to other federal, state, and local
                   government agencies via approved Pollution Removal Funding Authorizations
                   (PRFAs) or Military Interdepartmental Purchase requests that provide
                   reimbursable funding authority. After NPFC authorizes reimbursement, it pays
1
 A “Spill of National Significance” is a spill that, due to its severity, size, location, actual or potential impact on the
public health and welfare or the environment, or the necessary response effort, is so complex that it requires
extraordinary coordination of federal, state, local, and responsible party resources to contain and clean up the
discharge.

11-P-0527                                                                                                                 1
                the government agencies from the trust fund for their actual expenditures. NPFC
                has billed the responsible parties for the Deepwater Horizon oil spill $518 million,
                as of September 30, 2010. The billed amounts encompass actual Coast Guard
                expenditures and funds obligated by the federal on scene coordinator to other
                federal, state, and local government agencies. All the obligations and expenditures
                and are considered billable and fully collectible from the responsible parties as of
                September 30, 2010.2 According to the Government Accountability Office,
                BP has paid the NPFC $518.4 million as of October 12, 2010.

                EPA provided support as authorized by the Coast Guard. EPA’s support function
                included monitoring and responding to potential public health and environmental
                concerns. EPA collected and managed environmental data; took air, water, and
                sediment samples to determine potential risks to public health and the
                environment; and provided oversight on waste management activities and other
                general oversight and technical assistance.

                Funding of EPA Response Activities

                Because EPA served in a support role, it received PRFAs from the Coast Guard
                that defined EPA’s response activities. The PRFAs authorized EPA to provide
                support to the Coast Guard. PRFAs are based on a statement of work and a cost
                estimate.

                EPA received PRFAs for its response work that occurred or was coordinated in
                Regions 4 and 6 and EPA headquarters. The Coast Guard amended PRFAs
                beyond the initial authorizations as additional cleanup funding or activities were
                necessary. Because of some lag time in the approval process, EPA PRFAs and
                subsequent amendments were generally retroactive. As of December 31, 2010,
                EPA’s PRFAs show approximately $61.9 million in authorized response costs. 3
                EPA submits bills to the Coast Guard for reimbursement from the trust fund for
                its PRFA-authorized response costs.

                EPA’s 1996 memorandum of understanding (MOU) with the Coast Guard for use
                of the trust fund outlines requirements for EPA bills and cost documentation. The
                MOU provides that EPA shall produce a comprehensive written record supporting
                all expenditures and costs incurred in each removal. NPFC implementing
                guidance4 states that documentation provided should support a clear audit trail for
                reimbursement. This documentation will support reimbursement of EPA costs.
                The documentation will also assist with NPFC’s cost recovery on behalf of the
                trust fund.



2
  Department of Homeland Security FY 2010 Annual Financial Report.
3
  Headquarters PRFAs were as of October 31, 2010.
4
  NPFC Instruction 16451.2, Technical Operating Procedures for Resource Documentation under The Oil Pollution
Act of 1990.

11-P-0527                                                                                                   2
                EPA used its available cash from its Oil Spill appropriation along with any
                reimbursements received from the Coast Guard for previous oil spill work
                performed to pay for its PRFA-authorized activities. For those PRFA activities
                pending approval for funding, EPA temporarily charged other non-oil-spill
                appropriations: Hazardous Substance Trust Fund (Superfund), Environmental
                Programs and Management (EPM), and Science and Technology (S&T). EPA
                also reprogrammed existing Oil Spill and EPM funds.

                On August 3, 2010, EPA signed an MOU with the Coast Guard NPFC for a cash
                advance of $32 million. The MOU allowed for an advance of funds to ensure that
                EPA had cash available in the Agency account to pay expenses. EPA provided
                billing summaries and detailed cost documentation packages at a later date to
                support the expenses to liquidate the advance.

                EPA’s Reimbursable Costs

                As of March 3, 2011, EPA had spent just over $46.2 million in payroll, travel,
                miscellaneous, and contract costs (table 1). Payroll represents payroll costs
                (exclusive of indirect costs) of EPA response personnel. Travel represents travel
                expenses incurred by EPA response personnel. Miscellaneous represents costs for
                small purchases, such as office supplies. Contracts represent costs for EPA
                contractors employed in the response effort, as well as additional support services
                provided to EPA through interagency agreements with other federal agencies.

       Table 1: EPA’s reimbursable oil spill response costsa as of March 3, 2011
                             Payroll          Travel       Miscellaneous    Contracts     Total Costs
        Region 4            $4,147,448      $1,204,445           $138,713    $5,907,440    $11,398,046
        Region 6              4,346,551        871,369            116,086    21,499,763     26,833,769
                     b
        HQ EOC                3,908,896        335,386              4,927     3,746,718      7,995,927
        Total              $12,402,895      $2,411,200           $259,726   $31,153,921    $46,227,742
       Source: Office of Inspector General (OIG) analysis of EPA data.

                a
                    Data do not include EPA’s indirect costs.

                b
                    Headquarters Emergency Operation Center.



Noteworthy Achievements
                In response to the Gulf Coast oil spill, EPA developed a number of documents to
                strengthen its management controls and ensure accountability of its response
                funds. These documents include:

                           •	 EPA’s Deep Water Horizon/BP Oil Spill Stewardship Plan (finalized
                              October 25, 2010)—EPA developed this plan to ensure that resources
                              utilized for the oil spill support the Agency’s mission and comply with
                              EPA guidance. The plan considers internal controls and possible areas
                              of risk related to contracts and acquisitions, contract property,

11-P-0527                                                                                               3
                       purchase cards, personal property, interagency agreements, payroll and
                       travel, and budget execution.

                   •	 DWH Tracking and Spending Guidance—As EPA’s oil response
                      activities evolved, EPA developed a series of four guidance documents
                      during May through August 2010. These documents helped EPA
                      ensure appropriate tracking of its response costs and maintain fiscal
                      integrity. We identify these guidance documents in appendix A.

                   •	 Specific Headquarters and Regional Guidance on Charging to
                      DWH Oil Spill Response—Headquarters, Region 4, and Region 6
                      each developed guidance to help ensure appropriate charging of
                      payroll-related DWH response costs. We identify these guidance
                      documents in appendix A.

Scope and Methodology
            We conducted this evaluation from July 2010 to May 2011 in accordance with
            generally accepted government auditing standards. Those standards require that
            we plan and perform the evaluation to obtain sufficient, appropriate evidence to
            provide a reasonable basis for our findings and conclusions based on our
            objectives. We believe that the evidence obtained provides a reasonable basis for
            our findings and conclusions based on our evaluation objective.

            To gain an understanding of EPA’s management controls to track and recover its
            Gulf Coast oil spill response costs, we met with managers and staff in EPA’s
            program offices in headquarters, Washington, DC; the Cincinnati Finance Center,
            in Cincinnati, Ohio; Region 4, in Atlanta, Georgia; and Region 6, in Dallas,
            Texas. We also reviewed guidance issued by the Agency for tracking and
            monitoring its oil spill response costs.

            To determine how EPA funded its response, we obtained and reviewed temporary
            charging and reprogramming data from the Agency, MOUs between EPA and the
            Coast Guard, and PRFAs issued to EPA.

            To determine whether EPA’s response costs support and align with its PRFA
            activities, we judgmentally selected a sample of transactions from individual cost
            documentation packages submitted to the Coast Guard. EPA submitted three
            packages on October 14, 2010, one each for Regions 4 and 6 and EPA
            headquarters. These represented the first detailed cost documentation packages that
            EPA was required to submit based on the cash advance MOU. We took our sample
            from cost documentation packages submitted for Bill #4 for Regions 4 and 6, and
            Bill #3 for headquarters. The sample represented approximately $2.9 million, or
            51 percent, of the total costs submitted in the October 14, 2010, cost packages.
            We used the sample to evaluate EPA’s compliance with cost documentation
            requirements described in the cash advance MOU with the Coast Guard.

11-P-0527                                                                                       4
            We also reviewed various Agency-generated reports with response activity
            details, including situation reports (SitReps) and incident action plans (IAPs), in
            an effort to link Agency payroll to authorized PRFA activities for the
            judgmentally selected pay period #20 (June 20 through July 3, 2010). We
            reviewed a snapshot of data provided by Regions 4 and 6 from their Asset Tracker
            database, an Agency Incident Command database tool.

            Appendix A provides further details on our scope and methodology.




11-P-0527                                                                                    5
                                  Chapter 2

                EPA Should Improve Controls to 

                 Document Response Activity 

            EPA did not consistently generate documentation that captured its response
            activities across Regions 4 and 6 and headquarters. In addition, the documentation
            the regions generated does not provide a clear audit trail between the work it
            performed and what it billed the Coast Guard. A clear audit trail is needed to
            show that response costs relate to PRFA-authorized activities. EPA does not have
            guidance that requires documentation to identify costs billed to a specific activity.
            EPA guidance, Tracking Spending for the BP Gulf of Mexico (Deepwater
            Horizon) Oil Spill, issued May 18, 2010, provides that EPA track its response
            costs (reimbursable and nonreimbursable) with the designated oil spill site
            accounting code. However, use of the site code only indicates that work relates to
            the site; it does not identify the specific PRFA activity conducted. While all costs
            we reviewed were charged to the site code and may be appropriate, we were
            unable to determine the specific tasks underlying certain costs to ensure they were
            related to authorized activities. Without a clear audit trail, the Coast Guard could
            delay or deny reimbursement of these costs.

EPA Response Activity Does Not Provide a Clear Audit Trail
            Although EPA established various controls to track its Gulf Coast oil spill
            response costs as required and recommended by relevant Agency guidance, EPA
            has not implemented controls to ensure that it consistently generates response
            activity documentation that provides a clear audit trail linking response work
            performed to work billed. EPA’s 1996 MOU with the Coast Guard provides that
            EPA shall produce a comprehensive written record supporting all expenditures
            and costs incurred. Further, NPFC guidance provides that documentation should
            support a clear audit trail for reimbursement. Our review of a sample of EPA’s
            billings showed that the information EPA submitted to the Coast Guard in its cost
            documentation packages does not clearly demonstrate that the costs billed relate
            to authorized PRFA activities. In addition, our review of EPA’s response activity
            documentation showed that EPA did not consistently generate documentation
            across Regions 4 and 6 and headquarters that would clearly link its response work
            to billed costs.

            Controls to Track Activities

            EPA relied on existing controls to ensure proper charging and billing of costs for
            reimbursement, including established controls over its systems to track employee
            time, travel, and contract costs. In addition, EPA and the regions developed
            additional guidance and implemented new controls to track its response costs.

11-P-0527                                                                                        6
            In particular, EPA established an accounting code within its financial
            management system for recording and tracking costs associated with its oil-spill-
            related activities.

            EPA’s cost documentation packages provided to support each bill sent to the
            Coast Guard dealt with financial activity categories (e.g., travel, payroll,
            contracts, miscellaneous, and interagency agreements). The packages did not
            include information on response activities. EPA generally provided information
            on response activities to the Coast Guard (exclusive of the billings and cost
            documentation packages) in the form of SitReps. In some instances, EPA
            provided weekly IAPs. These reports and plans described activities EPA would
            conduct and/or conducted under the PRFAs, providing the operational period and
            identifying EPA staff and contractors performing the work.

            Although not provided to the Coast Guard, EPA used its Asset Tracker database
            as a resource tool for tracking and monitoring resources. Asset Tracker allows the
            regions to keep track of the personnel resources needed in the regional offices and
            in the field. It lists the position, location, title of position, and dates that person
            will be in that position. The regions also used Asset Tracker as a tool in the
            review of its travel costs. According to EPA, its response activity documentation,
            in conjunction with its cost documentation, provides a complete picture of EPA’s
            response work undertaken and billed. EPA also stated that the Coast Guard could
            use the documentation to prepare its cost recovery packages.

            OIG Sample Results

            We reviewed a judgmental sample of payroll, travel, miscellaneous, and contract
            costs to determine whether the response costs EPA billed support and align with
            its authorized PRFA response activities. Our review showed that EPA charged its
            response costs against the designated site accounting code as required by Agency
            guidance. However, none of the supporting documentation for payroll and
            miscellaneous costs contained in the cost documentation package we reviewed
            linked the costs billed to a specific PRFA activity. Only 35 percent of travel costs
            reviewed included some description that would link the travel to PRFA activities.
            Only 36 percent of the contract costs reviewed included a delivery/task order
            number that we could potentially link to a PRFA activity.

            Payroll

            For payroll, the supporting information in the cost documentation package
            included employee timesheets. The timesheets provided a name and, in most
            cases, a title such as environmental scientist, environmental engineer, scientist, or
            chemist. There was no supplemental information or documentation provided with
            the package that addressed how the costs link to the authorized PRFA activities.
            To determine this link, we reviewed a judgmental sample of supplemental
            information that included SitReps from Regions 4 and 6 and headquarters. We


11-P-0527                                                                                         7
            also reviewed selected IAPs for Region 6 (IAPs were not prepared for Region 4
            and headquarters). In addition, we reviewed a snapshot of data provided by
            Regions 4 and 6 from their Asset Tracker database.

            We were able to link the Regions 4 and 6 SitReps and the Region 6 IAPs to
            PRFA-authorized activities. However, the SitReps we reviewed for headquarters
            did not contain enough details to link the work performed to the authorized
            activities. We were only able to identify a portion of EPA staff from the
            Regions 4 and 6 SitReps and IAPs and link these staff to time charges billed for
            the applicable period. The Regions 4 and 6 SitReps and IAPs did not account for
            many of the EPA staff billed for reimbursement. The headquarters SitReps did not
            identify any EPA staff. As such, we were unable to link the payroll charges billed
            to response activities.

            Although our review of Asset Tracker was limited, we believe this resource may
            be a useful tool, along with the SitReps and IAPs, for linking EPA work
            performed to work billed. EPA managers reported that they could provide
            documentation linking costs to a specific response activity with additional effort.
            Based on our analysis of documentation provided by Regions 4 and 6, we agree
            with managers in those regions that, with additional effort, EPA could potentially
            link its payroll costs to PRFA activities. Because of the limited data for
            headquarters, we could not determine a potential link between work performed
            and work billed.

            Travel

            For travel, the information contained in the cost documentation package identified
            the employee, location, and general purpose of the trip, e.g., DWH oil spill, oil
            spill support, etc. However, only 35 percent of the vouchers included some
            description that would link the travel to a PRFA activity. As with payroll, we
            believe Asset Tracker may be a useful tool in linking travel to authorized PRFA
            activities.

            Miscellaneous

            Miscellaneous costs provided no description of the item purchased, purpose for
            the purchase, or activity related to the purchase. EPA did not include any
            additional documentation that would help link these cost to authorized PRFA
            activities.

            Contracts

            Some contractor invoices (36 percent) provided delivery order/task order
            numbers. The Coast Guard could use these numbers, along with additional
            contract information, to determine the activities performed. The remaining
            64 percent of contract invoices did not provide any information or documentation


11-P-0527                                                                                     8
            that would identify the work performed. Resolution of the confidential business
            information (CBI) issue, as discussed in chapter 4 of this report, may provide
            further clarification of contractor activities.

Conclusion

            EPA took a number of needed actions to ensure that it had sufficient resources to
            respond to the Gulf Coast oil spill and that it had controls to track and document
            its response costs. However, EPA needs to do more to assure that the Coast Guard
            will reimburse its costs. Consistent and complete documentation that details
            response activities and links them to authorized PRFA activities will provide a
            clearer audit trail than currently exists.

Recommendation

            We recommend that the Chief Financial Officer:

                   1.	 Implement controls to ensure that EPA consistently generates response
                       activity documentation that provides a clear audit trail linking response
                       work performed to response work billed.

Agency Response and OIG Evaluation
            The Office of the Chief Financial Officer (OCFO) provided Agency comments.
            We reviewed OCFO’s comments, met with OCFO officials to discuss the
            comments, and made changes to the report where appropriate. Appendix B
            provides the full text of OCFO’s response and the OIG’s comments.

            EPA disagreed with recommendation 1. The Agency believes that the necessary
            controls needed to track EPA’s DWH response costs to EPA’s three PRFA’s are
            in place. The Agency stated that DWH guidance established the accounting codes
            to track costs associated with the three PRFAs which were assigned to the Agency
            for response work. The Agency asserts that through this guidance, a structure was
            put in place to provide an audit trail for all costs related to each of the PRFAs and
            that the PRFAs did not require billing by subcategory, so the Agency did not set
            up account codes to track lower than PRFA spending. The Agency believes the
            use of the PRFA account code along with the Agency controls in place prior to
            making payments indicate that the costs were correctly applied. In a meeting to
            discuss their comments, an Agency manager stated that the cost benefit of
            implementing the recommendation needs to be considered. There is concern about
            putting resources into tracking costs at an activity level when the Coast Guard has
            not yet asked for information at this level. However, Coast Guard guidance
            entitled Technical Operating Procedures for Resource Documentation under the
            Oil Pollution Act of 1990, which is listed in Appendix 1 of EPA’s 1996 MOU
            with the Coast Guard, provides that documentation should support a clear audit
            trail.

11-P-0527                                                                                      9
            In our opinion, the use of the account code only shows that work relates to the
            site, it does not identify the specific PRFA activity conducted and does not
            provide a clear audit trail. When the OIG looked at additional information to
            identify specific PRFA activities conducted in order to link billed activity with
            authorized PRFA tasks, such as the SitReps and IAPs for payroll as suggested by
            the Agency, we were unable to link the billed response activity to PRFA
            authorized activities because a clear audit trail did not exist. We also found that
            SitReps and IAPs were not consistently generated among EPA Regions 4 and 6
            and headquarters.

            Recommendation 1 is unresolved with resolution efforts in progress.




11-P-0527                                                                                    10
                                   Chapter 3

            EPA Should Improve Controls to Address 

              Deficiencies in Cost Documentation 

             EPA needs to improve its billing reviews to ensure clarity and completeness of its
             cost documentation packages prior to submittal to the Coast Guard. Coast Guard
             NPFC guidance provides for documentation that supports a clear audit trail. In
             addition, EPA’s cash advance MOU with the Coast Guard outlines specific
             documentation required to support EPA’s bills for its cash advance. Our review of
             a sample of EPA’s billings and supporting cost documentation packages identified
             examples of required documentation that was missing. We also identified
             instances in which EPA needed to provide explanation or clarifying
             documentation. As a result, we were unable to determine whether EPA should
             have billed the applicable costs for reimbursement. These conditions create risk
             that Coast Guard may delay or deny reimbursement for some of EPA’s response
             costs possibly as much as $32 million.

      Improvements Needed in EPA’s Billing Review Process
             EPA relied on its existing controls to ensure proper charging and billing of costs
             for reimbursement. However, EPA should improve its review of its cost
             documentation packages to ensure the information clearly supports its billed
             response costs. Further EPA needs to strengthen its controls to ensure that cost
             documentation is complete and complies with the documentation requirements of
             the cash advance MOU. We found examples of missing and incomplete
             information that required clarification or additional documentation.

             OIG Sample Results

             We reviewed a judgmental sample of payroll, travel, miscellaneous, and contract
             costs to determine whether the response costs EPA had billed met Coast Guard
             NPFC and MOU cost documentation requirements. Within the sample, we
             observed missing documentation for payroll, miscellaneous, and contract charges.
             We also found instances in which EPA needed to provide clarification and/or
             additional information to supplement the already-provided documentation.
             Clarification and/or additional information was needed for some payroll, travel,
             and contracts costs.

             Payroll

             For the payroll charges we reviewed, 25 of 53, or 47 percent, required either
             explanation or additional documentation. For example, EPA billed costs with no
             corresponding payroll hours. In addition, EPA split costs, with some costs billed

11-P-0527                                                                                    11
            to Region 4 and some to Region 6, without explanation in the cost package. In
            one case, five timesheets were missing from the cost documentation. These
            examples demonstrate that in some cases the cost documentation did not provide a
            clear audit trail.

            Travel

            For travel vouchers we reviewed, 12 of 34, or 35 percent, required additional
            explanation. We found examples of split costs, with some costs billed to Region 4
            and some to Region 6, cross-funding between the DWH site code and other
            programs such as Superfund, and split payments between the traveler and the
            traveler’s credit card. In all instances, EPA provided no explanation with the
            detailed cost documentation.

            Miscellaneous

            For miscellaneous costs, 100 percent of the 20 vouchers we reviewed required
            additional documentation. None of the vouchers included receipts or invoices to
            support the cost. Although not included as part of the cost documentation
            package, EPA explained that it could obtain the supporting documentation from
            the employee if requested.

            Contracts

            For contract costs, 19 of 27, or 70 percent, of the invoices reviewed required
            additional documentation or explanation. We found examples of contract
            vouchers that were missing invoices and invoices in which EPA had redacted
            CBI. In addition, some vouchers had invoices that included charges for other EPA
            work, not only the BP spill. In all instances, EPA provided no explanation in the
            detailed cost documentation.

            Coast Guard Review of Cost Documentation Packages

            On November 1, 2010, EPA received comments from the Coast Guard on its
            review of the same billings included in our sample. The Coast Guard comments
            were similar to our independent findings. The Coast Guard requested additional
            explanation or description from EPA, along with additional supporting
            documentation for various costs including payroll, travel, miscellaneous, and
            contracts. According to EPA, in April of 2011, the Coast Guard accepted EPA’s
            payroll and travel documentation, but requested more specific cost documentation
            to support the $32 million in contractor and miscellaneous invoices. Because the
            Coast Guard’s review of contractor and miscellaneous invoices is still in process,
            it cannot be determined that the Coast Guard has denied any costs for
            reimbursement or requested repayment of any advanced funds.




11-P-0527                                                                                     12
Conclusion

            While EPA has established charging and billing processes, it could do more to
            ensure that the Coast Guard reimburses its response costs and does so in a timely
            manner. EPA cost documentation packages need to be clear and complete to
            comply with the Coast Guard NPFC and cash advance MOU cost documentation
            requirements and to avoid the risk that Coast Guard may delay or deny
            reimbursement for some of EPA’s response costs, possibly as much as $32
            million.

Recommendation
            We recommend that the Chief Financial Officer:

                   2.	 Implement controls to ensure that bills and supporting cost
                       documentation packages submitted to the Coast Guard are clear and
                       complete, and comply with cost documentation requirements.

Agency Response and OIG Evaluation
            OCFO provided Agency comments. We reviewed OCFO’s comments, and met
            with OCFO officials to discuss the comments. Appendix B provides the full text
            of OCFO’s response and the OIG’s comments.

            The Agency agreed with recommendation 2 and provided an acceptable corrective
            action plan. The Agency stated it is in negotiations with the Coast Guard to
            establish a protocol for future sites that will include a new cost documentation
            procedure that ensures EPA provides the Coast Guard with the necessary
            documentation to support the EPA billings. This recommendation is open with
            agreed-to corrective actions pending.




11-P-0527                                                                                   13
                                           Chapter 4

            EPA at Risk Due to Impasse on Handling of 

               Confidential Business Information 

                 EPA and the Coast Guard have reached an impasse on the handling of contractor
                 CBI. Although EPA submitted required invoices in its cost documentation
                 packages to the Coast Guard, in the sample we reviewed, EPA redacted most if
                 not all information (other than the total cost billed) contained in the invoices. EPA
                 indicated that it could not release the information without a signed non-disclosure
                 agreement for protection of CBI. EPA’s cash advance MOU with Coast Guard
                 established specific documentation requirements that EPA should meet in
                 supporting the drawdown of its cash advance, including contractor invoices and
                 supporting documentation with detailed activity. By redacting CBI information
                 from its invoices, EPA does not comply with its MOU requirements. As a result,
                 EPA is at risk of the Coast Guard indefinitely delaying reimbursement, denying
                 costs, and requiring repayment of cash advances. This is significant because EPA
                 contract costs represent over 67 percent of its total response costs. Any of these
                 situations could potentially render EPA unable to pay its contractors in a timely
                 manner. If this impasse remains unresolved, EPA may be at risk of incurring
                 Anti-Deficiency Act (ADA)5 and Prompt Payment rule6 penalties. As detailed in
                 chapter 5, EPA had incurred an ADA violation in November 2010.

Redacted CBI Needed for Reimbursement and Cost Recovery
                 The Coast Guard, in its November 1, 2010, comments to EPA on its cost
                 documentation packages, stated that it needed explanations, clarifications, and
                 invoices to consider the costs for reimbursement. EPA later clarified that the
                 Coast Guard needed unredacted documentation. The Coast Guard also informed
                 EPA that it needed the information for cost recovery. EPA stated that, due to
                 protection provided by the Trade Secrets Act, EPA could only share CBI with the
                 Coast Guard after providing proper notice to respective contractors about the
                 potential release. EPA indicated that the Coast Guard would have to sign a non-
                 disclosure agreement before EPA would release any documentation containing
                 CBI. EPA stated the non-disclosure agreement was necessary because EPA


5
  An ADA violation occurs when funds are obligated or expended without sufficient appropriations to cover the
obligation or expenditure. Based on Office of Management and Budget Circular A-11 (Part 4), the EPA
Administrator is required to report the ADA violation through the Director of the Office of Management and Budget
to the President, Congress, and the Comptroller General, and provide a comprehensive plan of action for preventing
any future recurrence.
6
  The Prompt Payment rule ensures that federal agencies pay vendors in a timely manner. Under the rule, agencies
that pay vendors after a payment due date are assessed late interest penalties.


11-P-0527                                                                                                      14
            regulations require a non-disclosure agreement be in place before EPA can
            provide unredacted documents to another federal agency.

            As an interim measure to address the sharing of CBI, EPA and the Coast Guard
            signed an agreement on November 18, 2010, that allowed the Coast Guard to
            view unredacted invoices in EPA offices. However, the Coast Guard could not
            copy or retain the contractor invoices. The Coast Guard visited EPA in
            November 2010 and reviewed some contractor invoices. Not all invoices were
            available because EPA had not completed its required contractor release
            notifications. The Coast Guard returned to EPA in early December 2010 to
            complete its review but, due to a miscommunication, was unable to gain access to
            the EPA building.

            Also during this time, due to ongoing cash flow problems, EPA requested and the
            Coast Guard denied a second cash advance. According to the Coast Guard, the
            denial was due in part to EPA not providing required contractor CBI-related cost
            documentation. Ultimately, the denial of EPA’s second cash advance request
            contributed to EPA incurring an ADA violation in fiscal year 2011 and has
            created delays in payments to EPA’s contractors.

            On December 10, 2010, EPA’s Deputy Chief Financial Officer met with the Coast
            Guard on the CBI issue and sent it a non-disclosure agreement for signature. The
            agreement stipulates an EPA requirement to identify CBI and notify contractors
            of the release of CBI in invoices. The December 2010 agreement is not limited to
            DWH only, but covers all cost documentation related to all actions taken by EPA
            and its contractors under EPA’s removal authority under Section 311 of the
            CWA, OPA, and/or the NCP. By signing the agreement, the Coast Guard would
            be agreeing that material designated as CBI or potential CBI by EPA shall not be
            disclosed unless it is in accordance with 40 Code of Federal Regulations
            § 2.209(c)(5).

            According to EPA’s Deputy Chief Financial Officer, correspondence with the
            Coast Guard in December 2010 indicated that the Coast Guard would get back to
            EPA regarding the non-disclosure agreement. On January 25, 2011, the OIG
            contacted the Coast Guard to discuss the impact of the CBI issue on EPA’s cost
            reimbursement. The Coast Guard informed us that while it wishes to resolve the
            CBI issue, it has not agreed to EPA’s proposed non-disclosure agreement.
            Further, EPA has not released unredacted contractor cost documentation for Coast
            Guard review. The Coast Guard explained that it needed the CBI contract-related
            cost documentation for cost recovery from the responsible parties, and cost
            recovery is needed to reimburse EPA.

            The OIG met with EPA financial officers on February 15, 2011, for an update on
            the CBI issue. At that meeting, we learned that the Coast Guard had not signed or
            contacted EPA about the non-disclosure agreement. Additionally, EPA has not



11-P-0527                                                                                  15
            released its unredacted contractor cost documentation and, as of mid-January
            2011, has stopped submitting bills to the Coast Guard for reimbursement.

Conclusion
            If EPA and the Coast Guard cannot reach agreement on the sharing of CBI, there
            is risk that the Coast Guard will not reimburse EPA for a significant portion of its
            response costs. In addition, the impasse has contributed to delays in payments to
            EPA’s contractors. If this issue remains unresolved or is not timely addressed, and
            EPA cannot pay its contractors timely, EPA may face additional ADA violations
            and Prompt Payment rule penalties. Further, the unresolved CBI issue impedes
            EPA’s ability to seek additional cash advances from the Coast Guard.

Recommendation
            We recommend that the Deputy Administrator:

                   3.	 Work with Coast Guard counterparts to develop and ensure the timely
                       implementation of an appropriate means of sharing EPA contractors’
                       response cost documentation designated as CBI.

Agency Response and OIG Evaluation
            OCFO provided Agency comments. We reviewed OCFO’s comments, met with
            OCFO officials to discuss the comments, and made changes to the report where
            appropriate. Appendix B provides the full text of OCFO’s response and the OIG’s
            comments

            The Agency agreed with recommendation 3 and provided an acceptable corrective
            action plan. The Agency stated that it implemented a non-disclosure agreement
            with the Coast Guard in March 9, 2011. In addition, the Agency said that it is in
            negotiations to implement a non-disclosure agreement that will cover all work
            performed on future sites and this will be completed by December 31, 2011. This
            recommendation is open with agreed-to corrective action pending.




11-P-0527                                                                                    16
                                           Chapter 5

                   EPA Needs Additional Authority for 

                      Funding Future Responses 

                 EPA did not have sufficient oil spill response funding to handle its costs related to
                 the Gulf Coast oil spill. For those PRFA activities pending approval and funding
                 by the Coast Guard, EPA temporarily charged three non-oil-spill appropriations,
                 resulting in one purpose violation with respect to the Superfund appropriation.7
                 EPA also reprogrammed available Oil Spill and EPM-appropriated funds to cover
                 these initial unfunded costs. For its PRFA-funded activities, EPA used available
                 cash from its Oil Spill appropriation along with any reimbursements received
                 from the Coast Guard for previous oil spill work to pay for these activities prior to
                 receiving reimbursement from the Coast Guard. While EPA used its authority to
                 temporarily charge other appropriations and reprogram existing funds, this
                 authority was limited by relevant appropriation laws. EPA does not appear to
                 have the additional authority to provide itself with an alternative funding option
                 for immediate access to necessary response funds—other than its limited Oil Spill
                 appropriation—or to allow itself a waiver or temporary exemption from relevant
                 appropriation laws. As a result, EPA could not cover its rapidly growing response
                 costs. Despite a cash advance from the Coast Guard of $32 million, EPA
                 continued to have cash flow problems that resulted in an ADA violation in
                 November 2010. Without additional emergency oil spill response funding, EPA’s
                 removal ability may be impeded, and EPA may be vulnerable to potential ADA
                 and Prompt Payment rule penalties on this and future oil spills.

EPA Faced Funding Challenges in Its Oil Spill Response
                 EPA faced challenges in funding its response work. Reimbursement from the
                 Coast Guard was not immediate and EPA did not have enough of its own
                 resources to cover its increasing response activities. In an attempt to prevent a
                 funding shortfall, EPA issued guidance that allowed for temporary charging to
                 non-oil-spill appropriations and for the reprogramming of funds. EPA also sought
                 and received a cash advance for $32 million from the Coast Guard. Because EPA
                 did not have timely access to sufficient funds, it incurred an ADA violation in
                 November 2010. In addition, EPA’s temporary charging against Superfund
                 resulted in a purpose violation because EPA did not use the Superfund funds for
                 their intended purpose.




7
 Under 31 U.S. Code § 1301(a), EPA may not charge Superfund for activities solely undertaken to respond to the
oil spill, even on a temporary basis.

11-P-0527                                                                                                        17
            Temporary Charging

            Due to the limited availability of Oil Spill Trust Fund appropriated funds and time
            lags in the approval of its PRFAs, EPA temporarily charged other non-oil spill
            appropriations.

            EPA issued Additional Guidance on Tracking Spending for the BP Gulf of Mexico
            (Deepwater Horizon) Oil Spill on June 22, 2010, that addressed temporary
            charging. EPA temporarily charged to other appropriations approximately
            $1.3 million of payroll and just over $1.0 million of other costs, including travel,
            contracts, and expenses. Specifically, EPA charged costs to the Superfund, EPM,
            and S&T appropriations. Payroll charges to these appropriations began on April
            25, 2010, and ended in July 2010. The charges involved 260 employees and 794
            payroll transactions (table 2).

            Table 2: Temporary payroll charging
                                  Number of              Number of
                 Fund            transactions         employees affected        Amount
             Superfund                 36                    19                   $86,150
             S&T                      194                    64                   308,554
             EPM                      564                    177                  933,537
             Total                    794                    260                $1,328,241
            Source: OIG analysis of EPA data.

            EPA also expended or planned to expend other nonpayroll costs, including travel,
            contracts, and other expenses, under the S&T and EPM appropriations. The
            nonpayroll expenses began May 13, 2010, and continued through August 31,
            2010. The expenses included 759 transactions totaling over $1.0 million (table 3).

            Table 3: Temporary other costs charged
                                        Number of
                     Fund              transactions            Amount
             Superfund                          0                          $0
             S&T                            308                      421,763
             EPM                            451                      583,802
             Total                          759                    $1,005,565
            Source: OIG analysis of EPA data.

            Because charges were made to non-oil-spill appropriations, EPA was required to
            correct or reverse its temporary charges to the Superfund, S&T, and EPM
            appropriations to the reimbursable Oil Spill appropriation. This correction was
            necessary for EPA to bill the Coast Guard for reimbursement. Further, EPA had
            to reverse the temporary charges to the S&T and EPM appropriations by the end
            of the fiscal year to avoid a purpose violation. Per EPA, all appropriate temporary
            charges were corrected by the end of the fiscal year as required.

11-P-0527                                                                                    18
            EPA’s temporary charging to Superfund violated 31 U.S. § 1301(a), a “purpose
            statute” violation because EPA may not charge Superfund for activities solely
            undertaken to respond to the oil spills. An EPA memorandum, Adjustments to
            Appropriated Funds Spending for the BP Gulf of Mexico (Deepwater Horizon)
            Oil Spill, dated August 20, 2010, required that all appropriate charges be reversed
            to EPA’s oil spill appropriation (H) or reimbursable account (HR). Because EPA
            was able to reverse all appropriate temporary charges to Superfund within the
            same fiscal year they occurred (fiscal year 2010), the Superfund purpose violation
            did not result in an ADA violation.

            Reprogramming

            In addition to temporary charging, EPA also asked the Office of Solid Waste and
            Emergency Response and the regions (with the exception of Region 4 and 6), in
            its Oil Appropriations Spending Memorandum, dated June 7, 2010, to reprogram
            any available Oil-Spill-appropriated funds to cover its response costs. EPA
            reprogrammed approximately $4.3 million, including $1.3 million in Oil Spill
            funds and $3.0 million in EPM funds. The Agency advised the OIG that it would
            not necessarily reverse these funds because it was not required to do so.

            Cash Advance

            EPA used available cash from its oil spill appropriation along with any
            reimbursements received from the Coast Guard for previous oil spill work
            performed to cover its PRFA activities prior to reimbursement by the Coast
            Guard. However, due to the timing and magnitude of the spill and EPA’s
            escalating involvement in the response, EPA did not have enough cash in its Oil
            Spill fund to cover its response costs. When the oil spill occurred on April 22,
            2010, EPA was into the third quarter of the fiscal year and had less cash for oil
            spill response than at the start of the fiscal year. By June 2010, EPA realized that
            cash was going out faster than the reimbursement was coming in.

            To prevent an anticipated cash shortfall, EPA negotiated a cash advance MOU
            with the Coast Guard’s NPFC in August 2010. The MOU provided a $32 million
            cash advance, including $9 million allocated to Region 4, $18 million to
            Region 6, and $5 million to headquarters.

            EPA needed the cash advance to manage its cash flow for the DWH expenses.
            These expenses were within EPA’s approved PRFA funding but exceeded the
            Agency’s available cash. The cash advance temporarily solved EPA’s anticipated
            cash shortfall at the time. However, in November 2010, EPA continued to
            experience cash flow problems resulting in part from its response to the DWH oil
            spill and the Enbridge spill in Michigan. EPA asked the Coast Guard for another
            cash advance. This time, EPA requested a $10 million cash advance against its
            interagency agreement with the Coast Guard, rather than its DWH PRFAs.
            However, per EPA, the Coast Guard denied the request, citing issues with access


11-P-0527                                                                                      19
            to cost documentation. According to EPA, the Coast Guard’s denial of the second
            cash advance, combined with EPA’s continued shortfall of funds, contributed to
            an ADA violation in November 2010.

Conclusion
            EPA had to quickly develop novel solutions to fund its Gulf Coast oil spill
            emergency response work. While these actions provided EPA with access to some
            necessary funding, EPA’s authority did not appear to provide it with an
            alternative funding option for obtaining immediate access to necessary response
            funds, other than its limited Oil Spill appropriation along with any
            reimbursements received from the Coast Guard for previous oil spill work
            performed. EPA’s authority also did not appear to allow it to grant itself a waiver
            or temporary exemption from relevant laws while it was trying to focus on
            funding its considerable and time-urgent response. While the cash advance
            provided EPA with access to needed funds, and the temporary charging and
            reprogramming provided short-term coverage for response funding prior to
            receiving authorized funding, EPA may not be able to rely on similar
            circumstances in the future. During the course of our review, EPA proposed
            language to the President’s 2012 budget to provide that the Oil Spill Fund can
            seek relief from any other appropriation if the Administrator determines that the
            Oil Spill Fund does not have enough cash to carry out the oil spill remediation.

Recommendation
            We recommend that the Chief Financial Officer:

                   4.	 Seek new or additional emergency response funding authority for oil
                       spills.


Agency Response and OIG Evaluation
            OCFO provided Agency comments. We reviewed OCFO’s comments, met with
            OCFO officials to discuss the comments, and made changes to the report, as
            appropriate. Appendix B provides the full text of OCFO’s response and the OIG’s
            comments.

             The Agency agreed with recommendation 4, provided an acceptable corrective
            action plan, and took action to address this recommendation during the course of this
            review. The Agency advised that in its fiscal year 2012 President’s Budget (2012
            appropriation), the EPA proposed to Congress new statutory authority for emergency
            transfers from any of EPA’s appropriations into the Oil Spill Response Account
            when the cash flow of funds out of the account is higher than expected. This
            authority will reduce the risk of future anti-deficiency violations by the Agency.
            This recommendation is considered closed with agreed to actions complete.


11-P-0527                                                                                    20
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                          POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                        BENEFITS (in $000s)

                                                                                                              Planned
    Rec.    Page                                                                                             Completion   Claimed    Agreed-To
    No.      No.                          Subject                        Status1      Action Official           Date      Amount      Amount

     1        9     Implement controls to ensure EPA consistently           U      Chief Financial Officer
                    generates response activity documentation that
                    provides a clear audit trail linking response work
                    performed to response work billed.

     2       13     Implement controls to ensure that bills and             O      Chief Financial Officer   12/31/2011   $32,000     $32,000
                    supporting cost documentation packages submitted
                    to the Coast Guard are clear and complete, and
                    comply with cost documentation requirements.

     3       16     Work with Coast Guard counterparts to develop           O      Deputy Administrator      12/31/2011
                    and ensure the timely implementation of an
                    appropriate means of sharing EPA contractors’
                    response cost documentation designated as CBI.

     4       20     Seek new or additional emergency response               C      Chief Financial Officer   02/14/2011
                    funding authority for oil spills




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




11-P-0527                                                                                                                                       21
                                                                                   Appendix A

                 Details on Scope and Methodology
We conducted our evaluation from July 2010 through May 2011, in accordance with generally
accepted government auditing standards. We reviewed EPA’s management controls to track and
recover its Gulf Coast oil spill response costs. To gain an understanding of these controls, we
met with EPA headquarters managers and staff in OCFO and the Office of Solid Waste and
Emergency Response, Office of Enforcement and Compliance Assurance, and Office of General
Counsel. We interviewed managers and staff from Regions 4 and 6 and the Office of Financial
Management, Cincinnati Finance Center.

To obtain background and an understanding of oil spill response requirements, we reviewed the
OPA, as well as the NCP as it relates to the Oil Spill Liability Trust Fund. We identified EPA’s
roles and responsibilities specifically related to the DWH oil spill. We reviewed specific EPA
cost tracking and spending policies and procedures. We reviewed the Coast Guard NPFC
guidance as it relates to EPA’s required cost documentation for PRFA-directed activities. We
reviewed relevant MOUs between the Coast Guard and EPA, including:

       •	 Memorandum of Understanding between the US EPA and the US Coast Guard - For
          Use of the Oil Spill Liability Trust Fund, December, 1996
       •	 Memorandum of Understanding between Director, USCG National Pollution Funds
          Center, and Director, USEPA Cincinnati Financial Management Center Governing
          Cash Advances from the Oil Spill Liability Trust Fund related to the Deepwater
          Horizon Incident Spill Response, FPN Nl0036, August 3, 2010

We reviewed relevant prior audit and evaluations reports, including: (1) U.S. Government
Accountability Office report, Deepwater Horizon Oil Spill: Preliminary Assessment of Federal
Financial Risks and Cost Reimbursement and Notification Policies and Procedures,
GAO-11-90R, November 12, 2010; and (2) U.S. Department of Commerce OIG memorandum,
Survey of NOAA’s System and Processes for Tracking Oil Spill Costs, OIG-11-016-M,
December 22, 2010.

To determine where EPA’s funding originated for its oil spill response, we requested and
reviewed payroll information from the Agency. We used this information to identify all sources
of funding for payroll, including temporary charging. We identified and reviewed Agency
procedures for the temporary charging and reprogramming of funds. We identified procedures
and controls in place to ensure that EPA corrected and reimbursed temporary charges to the
appropriate funds.

These procedures and controls are captured within the following guidance:

       •	 Tracking Spending for the BP Gulf of Mexico (Deepwater Horizon) Oil Spill,
          May 18, 2010
       •	 Oil Appropriation Spending, June 7, 2010


11-P-0527                                                                                      22
       •	 Additional Guidance on Tracking Spending for the BP Gulf of Mexico (Deepwater
          Horizon) Oil Spill, June 22, 2010
       •	 Adjustments to Appropriated Funds Spending for the BP Gulf of Mexico (Deepwater
          Horizon) Oil Spill, August 20, 2010

We reviewed EPA’s actions to determine whether any ADA violations have occurred and have
been reported to Congress or should be.

We obtained and reviewed EPA’s PRFAs (including 21 amendments) and associated statements
of work through September 30, 2010, for Regions 4 and 6 and headquarters. We reviewed the
PRFAs to identify reimbursable and nonreimbursable activities. We also reviewed the PRFAs to
determine applicable timeframes for activities billed and eligibility of work performed prior to
the PRFA date.

We met with personnel from the Coast Guard NPFC to discuss EPA’s billings, cost
documentation, and the cash advance MOU. We had communications with Coast Guard staff to
obtain an understanding of the Coast Guard’s billing and cost documentation review process.

To determine whether response costs submitted by EPA to the Coast Guard support and align
with PRFA tasks and activities, we reviewed EPA’s supporting cost summaries prepared through
Superfund Cost Recovery Package Imaging and On-Line System (SCORPIOS). We obtained
14 bills sent to the Coast Guard for costs incurred as of August 31, 2010. The 14 bills included
4 bills for headquarters, 5 bills for Region 4, and 5 bills for Region 6. The bills totaled over
$20.9 million. To determine EPA’s compliance with the detailed cost documentation
requirements of the cash advance MOU, we reviewed the only cost documentation packages
available at the time. In this instance, the first cash advance was in August 2010, and EPA’s first
cost documentation packages under the MOU were not submitted until October 14, 2010.

The packages, covering costs incurred through July 31, 2010, included one for headquarters
supporting Bill #3, one for Region 4 supporting Bill #4, and one for Region 6 supporting Bill #4.
The costs of the packages we reviewed totaled approximately $5.8 million, of which we sampled
approximately $2.9 million, or 51 percent. For each package, we judgmentally sampled the first
10 employees for payroll and travel and the first 10 vouchers for miscellaneous costs. Some
employees had multiple entries for payroll and travel. For all three packages, we reviewed all
vouchers for contract costs. For payroll, we reviewed employee timesheets and reconciled hours
billed to payroll hours for 5 percent of payroll costs in our sample billings. For travel, we
reconciled costs billed to supporting vouchers and receipts for 10 percent of travel costs in our
sample billings. For miscellaneous costs, we reconciled costs billed to transaction/payment
reports (no invoices or receipts provided) for 28 percent of miscellaneous costs in our sample
billings. For payroll, travel, and miscellaneous, we attempted to identify activities/work
performed to compare activities billed to those authorized in the PRFAs. However, we were
unable to accomplish this in most instances because the supporting documentation did not
always identify the activity/work performed.

For contract costs, because there were less than 10 vouchers in each of the packages, we
reviewed supporting documentation for 100 percent of the contract costs in our sample billings.


11-P-0527                                                                                        23
We reconciled billed costs to invoices and payment schedules. As with the payroll, travel, and
miscellaneous costs, we attempted to identify and compare activities/work performed with those
authorized in the PRFAs. Similar to the other costs, we were unable to accomplish this in most
instances because EPA did not provide the information in the supporting documentation.

To link activities that employees were performing with PRFA-approved activities, we
judgmentally chose to sample the operational period of June 20, 2010, to July 3, 2010 (pay
period #20). We reviewed the applicable IAP for Region 6. We reviewed 31 SitReps, including
15 from Region 4, another 14 from Region 6, and 2 from headquarters. We compared these
documents to payroll bills in an effort to determine whether staff listed in the SitReps and IAPs
correspond to staff listed in the billings. We also reviewed a snapshot from the Asset Tracker
provided by Regions 4 and 6.

To determine how EPA tracked temporary costs charged to non-oil-spill appropriations, we
requested a listing of all EPA employees working on the response (including those charging the
reimbursable oil spill account and those temporarily charging other accounts). We also requested
a listing of other costs (nonpayroll) that were temporarily charged. We identified how EPA
tracked the costs for future reimbursement. We also reviewed data provided by the Agency
indicating that EPA had corrected all appropriate temporary charges.

To determine how EPA tracked reprogrammed Oil Spill appropriations, we obtained and
reviewed an Integrated Financial Management System (IFMS) report from the Agency. The
Agency had reprogrammed oil funding in 16 instances.

To identify what data systems and processes EPA used to track and monitor costs for
reimbursement, we interviewed program officials in Regions 4 and 6 and managers in OCFO and
the Office of Financial Management, Cincinnati Finance Center. We identified and relied on
information in the SCORPIOS, IFMS, PeoplePlus, and GovTrip data systems to conduct our
review. We relied on response activity documentation, including SitReps and IAPs obtained
from the Agency’s on scene coordinator website and Asset Tracker data provided by Regions 4
and 6. We also relied on other information and data provided by the Agency for temporary
charging and reprogramming of funds. We did not verify the accuracy of the information
obtained or data received. However, we believe the data was sufficient for our review.

We identified EPA headquarters and Regions 4 and 6 procedures and controls for processing of
expenses charged to the DWH oil spill, and supporting documentation, but did not test these
controls. We also reviewed regional guidance on charging to the DWH oil spill. The guidance
reviewed includes the following:

       •	 Guidance for Headquarters Payroll Charging to the Deep Water Horizon (DWH) Oil
          Spill Account, June 17, 2010
       •	 EPA Region 6 Guidance for Charging to Deep Water Horizon Oil Spill Response,
          June 30, 2010
       •	 EPA Region 4 Guidance for Charging to BP Gulf of Mexico Deep Water Horizon Oil
          Spill Response, July 20, 2010



11-P-0527                                                                                       24
                                                                                            Appendix B

                  Agency Response to Draft Report and 

                            OIG Comment 

                                       (Received June 23, 2011)



MEMORANDUM

SUBJECT:       Response to the Draft Report: Office of Inspector General Evaluation of EPA’s Gulf
               Coast Oil Spill Response Shows Need for Improved Documentation and Funding
               Practices, Project No. 2010-1314, dated May 5, 2011

FROM:          Barbara J. Bennett
               Chief Financial Officer

TO:            Arthur A. Elkins, Jr.
               Inspector General


Thank you for providing us with the opportunity to comment on and respond to the findings and
recommendations made in the “Draft Report: Office of Inspector General Evaluation of EPA’s Gulf
Coast Oil Spill Response Shows Need for Improved Documentation and Funding Practices.” We have
reviewed the draft report and provided two attachments in response: (1) Comments on the OIG Draft
Report and (2) Proposed Corrective Action Plan.

If you have any questions concerning this response, please contact Stefan Silzer, Director, Office of
Financial Management (OFM), at (202) 564-5389 or Chris Osborne of OFM at (202) 564-5070.



Attachments (2)

cc: 	Bob Perciasepe
     Maryann Froehlich
     Wade T. Najjum
     Joshua Baylson
     Elizabeth Grossman
     Stefan Silzer
     Raffael Stein
     David Bloom
     John Bashista
     Susan Dax

11-P-0527                                                                                       25
    Melvin Visnick
    Carol Terris
    Christopher Osborne
    Jeanne Conklin
    Dale Miller
    Sandy Dickens
    Janice Kern
    Bobbie Trent
    Carolyn Copper
    Chad Kincheloe
    Angela Bennett
    Anne Declerck
    James Bove
    Dana Stalcup




11-P-0527                 26
                                                                                     Attachment 1

                            Comments on OIG Draft Report
“Office of Inspector General Evaluation of EPA’s Gulf Coast Oil Spill Response Shows Need for
                              Improved Documentation and Funding Practices”
                           Project No. 2010-1314, dated May 5, 2011

Chapter 1

Page 1 Paragraph 1 under National Contingency Plan and Federal Response: The report states
that the United States Coast Guard (USCG) has collected $518.4 million from BP for costs
related to the spill. The paragraph should go on to explain that “The billed amounts encompass
actual Federal On Scene Coordinator (FOSC) expenditures including costs of all USCG
personnel, ships, aircraft, and cutters directly supporting the FOSC and funds obligated by the
FOSC to other federal, state, and local government agencies. All the obligations and
expenditures to date are considered billable and fully collectible from the responsible parties.
Funds are obligated by the FOSC to other federal, state, and local government agencies via
FOSC approved Pollution Removal Funding Authorizations (PRFAs) or Military
Interdepartmental Purchase Requests that provide reimbursable funding authority” (DHS 2010
Annual Financial Report page 99). It should be made clear in the report that the USCG has
collected from BP all of the funds obligated to other federal agencies under PRFAs (which
include the three PRFAs to the EPA).

OIG Response: Language that OIG could independently support was added to the final report in
the National Contingency Plan and Federal Response section to include a paragraph from the
cited Department of Homeland Security 2010 Annual Financial Report.

Page 2 Paragraph 3 under Funding of EPA Response Activities: The report contains multiple
references to the 1996 Memorandum of Understanding (MOU) signed by the EPA and the
USCG regarding use of the Oil Spill Liability Trust Fund. The report should also acknowledge
that the USCG has accepted summary level documentation for reimbursement since 1996. Prior
to the DWH oil spill, USCG only required detailed cost documentation for select cases in which
USCG had initiated an action to seek reimbursement from a responsible party.

OIG Response: The Agency has disclosed that Coast Guard has ‘only’ required detailed cost
documentation for ‘select cases’ in which Coast Guard had initiated an action to seek
reimbursement from a responsible party. Given that the DWH oil spill was the largest oil spill in
U.S. history, and with a responsible party, in our opinion, the Agency should have expected that
the Coast Guard would be seeking reimbursement from the responsible party and detailed cost
documentation from EPA to support the USCG reimbursement efforts. The Agency’s request for
OIG to acknowledge in the report that USCG has accepted summary level cost documentation in
the past is not relevant in this circumstance.



11-P-0527                                                                                          27
Page 2 Paragraph 4 under Funding of EPA Response Activities: The description of the cash
available to make payments from the Oil Spill Account is unclear. The OIG report states “EPA
used its available cash from its Oil Spill reimbursable account to pay for its PRFA authorized
activities.” The PRFAs and the interagency agreement with the USCG do not provide cash to the
Agency. They only provide the authority to obligate funds. The Agency is limited to the cash
available from the Oil Spill appropriation along with any reimbursements received from the
USCG for previous work performed.

OIG Response: Language was modified in the final report in the Funding of EPA Response
Activities section to clarify the information.

Page 3 Paragraph 1: The EPA did not draw down funds based on billing summaries as part of the
cash advance. The cash advance was an advance of funds to ensure that the EPA had cash
available in the Agency account to pay expenses. The EPA was to provide the cost summaries
and cost documentation to support the expenses to liquidate the advance.

OIG Response: Language was added to the final report in the Funding of EPA Response
Activities section to clarify the information.

Chapter 2

Page 5 Paragraph 1: The OIG states that the documentation does not create a clear audit trail for
the USCG to accept the costs. In the previous chapter under Noteworthy Achievements, the OIG
states that the DWH Tracking and Spending Guidance “helped EPA ensure appropriate tracking
of its response costs and maintain fiscal integrity.” The guidance established the accounting
codes to be used to track costs associated with the three PRFAs which were assigned to the EPA
for response work. Through this guidance, a structure was put in place to provide an audit trail
for all costs related to each of the PRFAs. The PRFAs did not require billing by subcategory so
the EPA did not set up account codes to track lower than the PRFA spending.

OIG Response: The guidance OIG includes in the report’s “Noteworthy Achievements” section
does not ensure that EPA consistently generates response activity documentation that provides a
clear audit trail that links response work performed to response work billed. However, we
recognize the value of the guidance as a first important step in tracking the Agency’s response
costs and providing consistent guidance to Agency staff and managers.

Chapter 2 of the OIG report states that EPA’s cost documentation packages provided to support
the billings EPA sends to the Coast Guard for reimbursement deal with financial activity
categories, not response activities. We reviewed a judgmental sample of these cost
documentation packages and concluded EPA charged its response costs as required by Agency
guidance to the DWH account code. However, only 35 percent of the supporting documentation
for travel, 36 percent of the supporting documentation for contracts, and none of the supporting
documentation for payroll and miscellaneous provided a clear audit trail that linked the costs
billed to specific PRFA activities. Coast Guard NPFC guidance entitled Technical Operating
Procedures for Resource Documentation under the Oil Pollution Act of 1990, which is listed in

11-P-0527                                                                                      28
Appendix 1 of EPA’s 1996 MOU with the Coast Guard, provides that documentation should
support a clear audit trail. EPA advised that it generally provided information on response
activities to the Coast Guard in the form of SitReps and IAPs. EPA told us that reviewing
response activity documentation in conjunction with its cost documentation would provide a
complete picture of EPA’s response activity performed and billed. Therefore, we looked at a
judgmental sample of the response activity documentation generated by EPA Regions 4 and 6
and headquarters. Based on our review we concluded that the response activity documentation
did not provide a clear audit trail between the work performed and billed to the Coast Guard and
was not consistently generated by EPA headquarters and Region 4 and 6. While PRFA’s may not
explicitly require billing by subcategory, to provide a clear audit trail for Coast Guard to
reimburse costs, EPA should be able to provide response level activity documentation should the
Coast Guard or a responsible party ask for this documentation. We believe that the cost
documentation produced by utilizing the PRFA accounting codes, along with improved response
level activity documentation, will provide a clearer audit trail. In addition, EPA has disclosed in
its response that it is aware that USCG has requested “detailed cost documentation for select
cases in which USCG had initiated an action to seek reimbursement from a responsible party.”
In our opinion, given that the DWH Oil spill was the largest in US history and had a responsible
party, EPA should have anticipated and been prepared to provide information that supports a
clear audit trail.

The OIG should remove the sentence “While all costs may be appropriate, we were unable to
determine whether certain costs were related to authorized activities for reimbursement and, as
such, were billable.” There is no indication in the draft report that the OIG tested transactions
and traced them back to the source to either confirm or deny the costs were associated to the
spill. The use of the PRFA account code along with the Agency controls in place prior to making
payments indicate that the costs were correctly applied.

OIG Response: Language was modified in the final report to clarify this statement.

As discussed in our response above we reviewed a judgmental sample of cost documentation
packages and concluded that EPA charged its response costs as required by Agency guidance,
but none of the supporting documentation for payroll and miscellaneous costs, and only 35
percent of the travel costs and 36 percent of the contract costs linked the costs billed to specific
PRFA activities. EPA told us that response activity documentation in conjunction with its cost
documentation provides a complete picture of EPA’s response activity undertaken and billed, so
we looked at a judgmental sample of the documentation that the regions generated such as
SitReps and IAPs. We concluded that the response activity documentation does not provide a
clear audit trail between the work it performed and what it billed to the Coast Guard and was not
consistently generated by EPA Regions 4 and 6 and headquarters. Without consistently
accounting for response level activity, there is no way to know whether certain costs were related
to authorized activities for reimbursement and, as such, billable.

Throughout this Chapter, the OIG continues to state that the costs were not identifiable to
specific response activities. The Agency account code was not set up to track an activity because
there was no requirement in the PRFA to track at other than the PRFA spending level.


11-P-0527                                                                                        29
OIG Response: EPA stated that response activity documentation in conjunction with cost
documentation provides a complete picture of EPA’s response activity undertaken and billed.
Coast Guard NPFC guidance entitled Technical Operating Procedures for Resource
Documentation under the Oil Pollution Act of 1990, which is listed in Appendix 1 of EPA’s
1996 MOU with the Coast Guard, provides that documentation should support a clear audit trail.
While PRFA’s may not require billing by subcategory, EPA should be able to consistently
provide response activity documentation in order to provide a clear audit trail that supports
reimbursement of costs from the Coast Guard and future cost recovery efforts. EPA has
disclosed in its response that it is aware that the Coast Guard has requested “detailed cost
documentation for select cases in which Coast Guard had initiated an action to seek
reimbursement from a responsible party.” In our opinion, given that the DWH oil spill was the
largest in U.S. history and had a responsible party, EPA should have anticipated and been
prepared to provide information that supports a clear audit trail and costs at the activity level.

Chapter 3

The chapter identifies issues with payroll and travel along with a statement that the USCG had
provided comments on the billings issued through November 2010. The payroll and travel issues
in question were minor and the USCG was provided with a satisfactory explanation in a timely
manner. The EPA and the USCG reached an agreement on the Confidential Business
Information (CBI) issue for DWH in March 2011. Once the agreement was signed, the EPA
provided the cost documentation for billing processing to the USCG. On May 2, 2011, the USCG
had completed the review of the cost documentation and has accepted all payroll and travel
claims without question.

OIG Response: The Agency’s response does not address issues the OIG identified with payroll,
travel, miscellaneous, and contract costs, some of which were similar to the issues expressed by
the Coast Guard. Further, the Agency’s response also does not provide details on how the CBI
agreement with the Coast Guard addresses the OIG findings regarding reimbursement of EPA’s
contracts costs. As stated in the report, OIG observed missing documentation for payroll,
miscellaneous, and contract charges, and identified areas where clarification and/or additional
information was needed for some payroll, travel, and contracts costs for the sample we reviewed.
Regardless of how ‘minor’ EPA believes the Coast Guard comments were, EPA still had to
address the comments before Coast Guard would reimburse these charges. We believe EPA
should implement controls to ensure that bills and supporting cost documentation packages
submitted to the Coast Guard are clear and complete and comply with cost documentation
requirements.

In follow-up communications with the Agency on its draft report comments, we requested the
March 2011 CBI agreement. Based on our review of the information, we determined that the
agreement has not yet been effective in providing EPA reimbursement of its contractor costs and
other costs are also under review by USCG. However, the agreement has resulted in some EPA
costs being reimbursed.



11-P-0527                                                                                       30
Page 10 Paragraph 1 under Coast Guard Review of Cost Documentation Packages: The OIG
states that on November 1, 2010 the EPA received comments on the cost documentation, which
had been provided, and were similar to the OIG findings explained in previous sections of this
chapter. The questions from the USCG did not dispute whether the costs were charged correctly
but were seeking information to either explain the EPA payment process or question what they
felt was an anomaly. The expenses were correctly charged to the applicable PRFA.

OIG Response: As the OIG report states, the Coast Guard requested additional explanation or
description from EPA along with additional supporting documentation for various costs including
payroll, travel, miscellaneous, and contracts. We believe that the Coast Guard requested this
information to assist in its review in determining whether the costs were PRFA-related costs and,
as such, reimbursable.

Our report goes on to state that the Coast Guard review is still in process. EPA has stated in its
response that in March 2011, EPA and the Coast Guard reached an agreement on the CBI issue
for DWH. EPA further states that on May 2, 2011, the Coast Guard had completed its review of
the cost documentation and had accepted all payroll and travel claims without question. However,
as stated in the response above, we determined that the March 2011 agreement has not yet been
effective in providing EPA reimbursement of its contractor costs and other costs are also under
review by the Coast Guard. The agreement has resulted in some EPA costs being reimbursed.

It should also be noted that during this time there was not the appearance of consistent
approaches to communications and understanding of cost documentation requirements. While
the program, OCFO and the Agency would benefit from improved procedures for documentation
and an updated signed MOU, everyone should be cautious in drawing conclusions based on
information and responses/interviews collected during the early stages of the response when
some of the parameters seemed to change week to week. For instance, the requirements for
detailed cost documentation appeared to change and become more stringent as time passed.

OIG Response: The OIG appreciates that the DWH oil spill was an evolving situation and has
noted in the Background of the report that the DWH is the largest spill in US history. Chapter 5 of
the OIG report also describes EPA’s DWH funding challenges. As stated in the Agency response,
EPA will benefit from improved procedures for cost documentation; highlighted by EPA’s
experiences with the DWH oil spill.

Chapter 4

While the OIG has provided a synopsis of the negotiations with the USCG on the CBI issue, the
OIG does not address the underlying need for the CBI non-disclosure agreement. By failing to
discuss the basis for this necessity, the report inaccurately characterizes the EPA as being
unreasonable for requiring the USCG to enter into the non-disclosure agreement.

OIG Response: The OIG report states that EPA stated that, due to protection provided by the
Trade Secrets Act, EPA could only share CBI with the Coast Guard after providing proper notice
to respective contractors about the potential release. We do not believe the OIG report implies

11-P-0527                                                                                      31
that EPA was unreasonable for requiring the Coast Guard to enter into the non-disclosure
agreement.

The OIG points out that the USCG requires un-redacted documents for cost recovery, but fails to
explain that EPA regulations require that a non-disclosure agreement be in place before the EPA
can provide un-redacted documents to another federal agency (40 CFR 2.209(c)). The 1996
MOU, which has already been discussed above, does not establish the necessary documentation
for interagency sharing of CBI and, in fact, does not discuss CBI at all. Requiring a non-
disclosure agreement is a necessary action that is not contradicted by the MOU. Therefore, the
EPA’s handling of CBI has been, and is, in accordance to its regulations under 40 CFR Part 2. A
non-disclosure agreement between the EPA and USCG was put in place in March 2011, at which
time the un-redacted documents were provided to the USCG.

OIG Response: Language was added to the final report in the Redacted CBI Needed for
Reimbursement and Cost Recovery section to include information provided.




11-P-0527                                                                                   32
                                                                                       Attachment 2

        OCFO’s Response to OIG Draft Report – Corrective Action Plan
“Office of Inspector General Evaluation of EPA’s Gulf Coast Oil Spill Response Shows Need for
                               Improved Documentation and Funding Practices”
                            Project No. 2010-1314, dated May 5, 2011



Rec.     OIG Recommendation                Action          Proposed Corrective            Proposed
No.                                       Official(s)            Action                 Completion Date

1.     Implement controls to ensure     Office of the     1.1 The necessary                   N/A
       that EPA consistently            Chief Financial   controls needed to ensure
       generates response activity      Officer           that the EPA consistently
       documentation that provides      (OCFO)/Office     generates response
       a clear audit trail linking      of Financial      activity documentation
       response work performed to       Services (OFS)    are currently in place.
       response work billed.                              The account code
                                                          provided for each
                                                          Pollution Removal
                                                          Funding Authorization
                                                          (PRFA) or site identified
                                                          through the interagency
                                                          agreement provides a
                                                          clear audit trail to track
                                                          the costs to each response
                                                          activity.


2.     Implement controls to ensure     OCFO/OFS          2.1 The EPA and USCG           December 31,
       that bills and supporting cost                     are in negotiations to            2011
       documentation packages                             establish a protocol for
       submitted to the Coast Guard                       future sites that will
       are clear and complete, and                        include a new cost
       comply with cost                                   documentation procedure
       documentation requirements.                        that ensures the EPA
                                                          provides the USCG with
                                                          the necessary
                                                          documentation to support
                                                          the EPA billings.


3.     Work with Coast Guard            Office of the     3.1 The EPA and the            March 9, 2011
       counterparts to develop and      Administrator     USCG reached an


11-P-0527                                                                                       33
Rec.     OIG Recommendation              Action         Proposed Corrective          Proposed
No.                                     Official(s)             Action             Completion Date
       ensure the timely              (OA)            agreement on the CBI
       implementation of an                           issue for DWH.
       appropriate means of sharing
       EPA contractors’ response                      3.2 The EPA and USCG           December 31,
       cost documentation                             are in negotiations to            2011
       designated as Confidential                     implement a non-
       Business Information (CBI).                    disclosure agreement that
                                                      will cover all work
                                                      performed on future sites.


4.     Seek new or additional         OCFO/Office     4.1 In its FY 2012           February 14, 2011
       emergency response funding     of Budget       President’s Budget (2012
       authority for oil spills.                      appropriation), the EPA
                                                      proposed to Congress
                                                      new statutory authority
                                                      for emergency transfers
                                                      from any of EPA’s
                                                      appropriations into the
                                                      Oil Spill Response
                                                      Account when the cash
                                                      flow of funds out of the
                                                      account is higher than
                                                      expected. This authority
                                                      will reduce the risk of
                                                      future anti-deficiency
                                                      violations by the Agency.




11-P-0527                                                                                   34
                                                                            Appendix C

                                    Distribution
Office of the Administrator
Deputy Administrator
Chief Financial Officer
Regional Administrator, Region 4
Regional Administrator, Region 6
Agency Followup Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Followup Coordinator, Office of the Chief Financial Officer
Audit Followup Coordinator, Region 4
Audit Followup Coordinator, Region 6




11-P-0527                                                                           35
